 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 MEDICARE HMO PRESCRIPTION
       DRUG BENEFITS

Information Available to Beneficiaries on
             Dollar Limits




                     JANET REHNQUIST
                     INSPECTOR GENERAL

                         MAY 2002
                        OEI-03-00-00430
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                  EXECUTIVE SUMMARY


PURPOSE

   This report describes (1) elements that can help Medicare beneficiaries assess the value of a
   health maintenance organization’s (HMO’s) prescription drug benefit, and (2) how HMOs
   convey information about dollar limits on drug benefits to beneficiaries.



BACKGROUND

   The 1997 Balanced Budget Act established the Medicare+Choice program. Under this

   program, the Centers for Medicare & Medicaid Services (CMS) contracts with a greater

   variety of health plans, which increases health plan options for Medicare beneficiaries. This

   report focuses on HMO plans under contract with CMS. In addition to providing benefits

   covered by the Medicare fee-for-service program, the HMO plans may provide extra benefits

   such as a drug benefit that covers outpatient prescription drugs. The HMO plans can limit their

   drug benefit in various ways. One way is to limit coverage to a certain dollar amount. Of the

   HMO plans that offered an extra drug benefit in 2001, 87 percent limited the dollar amount

   of coverage. Plans can also limit the drug benefit by charging beneficiaries coinsurance or

   copayments, by only covering certain types of drugs (i.e., brand name or generic drugs), or

   only covering drugs on a formulary.


   Beneficiaries can receive information about plans’ drug benefits from a number of sources. 

   One tool a beneficiary can use to compare drug benefits is the Summary of Benefits. The

   CMS, which administers the Medicare+Choice program, mandates that each plan have a

   Summary of Benefits so that beneficiaries can use them to make informed choices. In addition

   to reading the Summary of Benefits, beneficiaries can phone the HMO plans and speak to

   customer service representatives to get information about the drug benefit. Beneficiaries with

   Internet access can also gather plan information by using the Medicare Compare database

   located on the Medicare website (www.medicare.gov).


   Beginning in 2000, HMO plans submitted information about their benefits to the new CMS

   database called the Plan Benefit Package database, which is a part of CMS’ Health Plan

   Management System. For this report, we analyzed information provided by plans to the Plan

   Benefit Package database. We also called customer service representatives and reviewed

   Summaries of Benefits for a sample of HMO plans that limit drug benefits.





    Medicare HMO Prescription Drug Benefits    i                                       OEI-03-00-00430
FINDINGS

Comparing the dollar limits on drug benefits can be a daunting task

      There are a number of elements that beneficiaries should review when comparing and assessing
      plans’ limits on drug benefits. Medicare beneficiaries enrolled in HMO plans with dollar limits
      on drug benefits received drug coverage ranging from $200 to $12,000 in the year 2001.
      While the amount of the dollar limit on a plan’s drug benefit is an important element when
      comparing plans, other elements can significantly affect the value of a plan’s drug benefit.
      These elements include the time period of the dollar limit, whether the plan allows beneficiaries
      to carry forward unused dollars, the types of drugs covered under the limit, whether drug
      formularies are used, the pricing method the HMO uses to determine the dollar amount applied
      to the limit for each prescription, and whether the HMO deducts copayments before applying
      the prescription’s dollar amount to the limit.

The information that HMOs provide to beneficiaries about certain elements of the
drug benefit is inconsistent, incomplete, and confusing

      Medicare beneficiaries can obtain a variety of information about HMO drug benefits.
      However, we found that many HMO plans did not provide beneficiaries with the specific
      method being used to calculate the dollar amount applied to the limit for each prescription.
      When we telephoned plan representatives to ask them how they generally determined the
      amount applied to the dollar limit for prescription drugs, fewer than half provided the answer.
      Furthermore, when we asked them for specific prices for four commonly used drugs, 90
      percent said they could not or would not provide the information. Even when information
      regarding the pricing method was provided in the CMS Plan Benefit Package database,
      Summary of Benefits, or by the plan’s customer service representative, the information in one
      source was not always consistent with what a plan reported in another source. Dollar amounts
      and time periods reported by some plans were also not always consistent across sources. In
      addition, few HMOs provided information to beneficiaries about whether copayments are
      deducted from the prescription prices applied to the dollar limit.

      Incomplete, inconsistent, and confusing information about a drug benefit’s dollar limit makes it
      difficult for beneficiaries to know exactly what the drug benefit includes. It also may make it
      difficult to compare the value of drug benefits provided by different plans, thereby preventing a
      beneficiary from making an informed choice.



RECOMMENDATIONS

      Our prior studies have shown that prescription drug coverage is one of the main factors that
      attracts beneficiaries to enroll in a managed care option under Medicare. Thus, every

       Medicare HMO Prescription Drug Benefits    ii                                        OEI-03-00-00430
   practical effort should be made to help beneficiaries compare drug benefits among various
   plans. In order for beneficiaries to make informed choices regarding the value of a plan’s
   prescription drug limit, they need accurate, comprehensive, and comparable information about
   the plan’s drug benefit. To this end, CMS has taken numerous steps to ensure that beneficiaries
   receive information about drug plans in both the Summary of Benefits and the Medicare
   Compare database available on the Internet. We recommend that CMS also consider the
   following:

   <	       Enhance and validate the drug limit information that is collected from plans for the Plan
            Benefit Package database.

   <	       Enhance current educational efforts to ensure the plans’ drug benefits are clearly
            explained.



AGENCY COMMENTS

   The CMS reviewed our draft report. They agreed with our draft recommendations: (1) to
   enhance and validate the drug limit information currently collected in the Plan Benefit Package
   database, and (2) to provide beneficiaries with education regarding drug benefits. However,
   they felt our suggestions for how to provide such education were inappropriate. They also
   commented that we did not adequately acknowledge the drug benefit information that is already
   being provided to beneficiaries.

   We acknowledge CMS’ concerns, and have substantially revised our recommendations to
   respond to their comments. We have also modified our introduction and finding sections to
   reflect CMS’ comments concerning the types of drug benefit information already being
   provided to beneficiaries and the inherent complexity of this information.

   However, we continue to believe that pricing information is a key element when comparing
   plans’ drug benefits. We understand that “drug benefit offerings in the pharmaceutical industry
   are complex and it is difficult for anyone (i.e., not only Medicare beneficiaries) to understand . .
   . .” It is precisely for that reason that we continue to believe that beneficiaries need to
   understand and know pricing information to make an informed decision. The CMS suggested
   that beneficiaries would better understand a drug benefit and be able to compare it across plans
   if they could see what it would cost to obtain a prescription for one or two popular drugs. We
   agree that providing plans’ actual prices for drugs would assist beneficiaries in making informed
   choices about the value of a plan to them. We encourage CMS to work toward making actual
   prices available to Medicare beneficiaries.




    Medicare HMO Prescription Drug Benefits     iii                                        OEI-03-00-00430
                                 TABLE                   OF            CONTENTS

                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Assessing the Value of HMO Drug Benefits With Dollar Limits . . . . . . . . . . . . . . . . . . . . . . 5


          HMO Information About Dollar Limits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


          A. Pricing Methods Used by HMO Plans with Dollar Limits in 2001 . . . . . . . . . . . . . . . . . . 13


          B. Centers for Medicare & Medicaid Services’ Comments . . . . . . . . . . . . . . . . . . . . . . . . . 14


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





            Medicare HMO Prescription Drug Benefits               iv                                                    OEI-03-00-00430
                                 INTRODUCTION


PURPOSE

      This report describes (1) elements that can help Medicare beneficiaries assess the value of a
      health maintenance organization’s (HMO’s) prescription drug benefit, and (2) how HMOs
      convey information about dollar limits on drug benefits to beneficiaries.



BACKGROUND

Health Plan Options for Medicare Beneficiaries

      The 1997 Balanced Budget Act established the Medicare+Choice program. Under this
      program, the Centers for Medicare & Medicaid Services (CMS) contracts with a greater
      variety of health plans. Beneficiaries are now able to choose between the traditional fee-for-
      service Medicare program, private fee-for-service plans, and managed care plans. Managed
      care plans include those offered by HMOs, preferred provider organizations, and provider-
      sponsored organizations. This report focuses on HMO plans under contract with CMS.

Medicare HMO Drug Benefit

      In addition to providing benefits covered by the Medicare fee-for-service program, HMO plans
      may provide extra benefits such as outpatient prescription drugs. According to a February
      2000 report by the Office of Inspector General (OIG) entitled Medicare+Choice HMO Extra
      Benefits: Beneficiary Perspectives (OEI-02-99-00030), receiving extra benefits is a major
      incentive for beneficiaries to join HMO plans. When the OIG asked enrollees which of the
      plan’s extra benefits were most important to them, 87 percent said prescription drugs.
      Moreover, one-third of HMO enrollees indicated that the drug benefit was the “single most
      important reason they chose their HMO.”

      Currently, HMO plans limit their drug benefit in various ways. One way is to limit coverage to
      a certain dollar amount. Of the HMO plans that offered an extra drug benefit in 2001, 87
      percent limited the dollar amount of coverage. Plans can also limit the drug benefit by charging
      beneficiaries coinsurance or copayments, by only covering certain types of drugs (i.e., brand
      name or generic drugs), or only covering drugs on a formulary. A formulary, as defined by the
      National Pharmaceutical Council, is “a listing of prescription medications which are preferred
      for use by a health plan and which may be dispensed through participating pharmacies to
      covered persons. This list is subject to periodic review and modification by the health plan.”


       Medicare HMO Prescription Drug Benefits    1                                        OEI-03-00-00430
Sources of Information on HMOs’ Drug Benefit

      Beneficiaries can receive information about plans’ drug benefits from a number of sources.
      One tool a beneficiary can use to compare drug benefits is the Summary of Benefits. This
      document describes a plan’s benefits in a standardized format that makes it possible for a
      reader to compare benefits across different plans, and also to compare a plan’s benefits to
      Medicare’s traditional fee-for-service program. The CMS mandates each plan have a
      Summary of Benefits that can be provided to beneficiaries to assist them in making informed
      choices. The CMS currently requires that the Summary of Benefits state clearly whether there
      are limits to the drug coverage, and if so, state the dollar limits and the time period of the limits.
      In addition, plans must state whether unused dollars in one time period cannot be carried
      forward to the next period. Plans must also state the dollar amounts of any copayments, and
      whether the benefits are restricted to a formulary.

      In addition to reading the Summary of Benefits, beneficiaries can phone HMO plans and
      speak to customer service representatives to get information about the drug benefit.
      Beneficiaries with Internet access can also use the Medicare Compare database located on the
      Medicare website (www.medicare.gov). This database contains descriptions of plan benefits
      according to service area. Like the Summary of Benefits, Medicare Compare explains
      benefits in a standardized format that allows beneficiaries to compare benefits across plans.
      Information required of the plans in the Summary of Benefits can also be found in Medicare
      Compare.

      The HMOs are required to submit all the details of their contracted plan benefit packages to
      CMS for review and approval. Beginning in 2000, plans submitted information about their
      benefits to the new CMS database called the Plan Benefit Package database, which is a part of
      CMS’ Health Plan Management System. The Plan Benefit Package database provides a
      standard structure for the description of all plan benefits. The Summary of Benefits is
      automatically generated from this database, and Medicare Compare is updated from this
      database. This database collects more detailed information about plans’ drug benefits than
      HMOs have provided to CMS in the past.


METHODOLOGY

Plan Benefit Package Information

      We obtained a copy of CMS’ Plan Benefit Package database for contract year 2001. Using
      this database, we identified 484 managed care plans with a prescription drug benefit. Of these
      484 plans, 410 had a dollar limit on drug coverage. From plans with dollar limits, we selected
      organizations that had a contract with CMS to provide benefits either through HMO plans only
      or through a combination of both HMO and HMO Point of Service (HMOPOS) plans. There
      were a total of 377 plans offered by contracted organizations with either all HMOs or a mix of
      HMO and HMOPOS plans. In this report, we will refer to these 377 plans as HMO plans.


       Medicare HMO Prescription Drug Benefits      2                                          OEI-03-00-00430
     We analyzed the database information to identify how HMO plans establish the drug benefit’s
     dollar limit. Of the 377 plans with a dollar limit, 3 plans did not answer most database
     questions about the limit. Therefore, much of our analysis is based on 374 plans. The variables
     we analyzed included: (1) dollar amount of the limit; (2) time period of the limit; (3) whether a
     beneficiary’s unused coverage dollars could be carried forward from one time period to the
     next; (4) drug types included in the limit; (5) coverage of formulary and non-formulary drugs;
     (6) the pricing method (i.e., the method used by the HMO to determine the dollar amount
     applied toward the limit for a beneficiary’s drugs); and (7) whether copayments are deducted
     from the drug’s prescription price before that dollar amount is applied toward the beneficiary’s
     limit.

     We found inconsistencies within some HMO plans’ responses to certain database questions. In
     order to analyze the data, we re-coded these responses based on other information provided
     by the plan in the database. Also, a majority of plans did not select one of the nine categories
     the database specified for pricing method. Instead these plans chose the response, “Other.”
     For these plans, we used narrative explanations in the note fields to either re-code responses or
     create additional categories for pricing method. We did not contact HMOs to verify the Plan
     Benefit Package data they provided to CMS.

Customer Service Information

     The 377 plans that we identified for analysis in the Plan Benefit Package database represented
     118 contracts between CMS and HMOs. A single contract can be for one or more health
     plans. We phoned customer service staff at one plan representing each of the 118 contracts.
     When a contract had more than one plan, we selected one plan at random.

     In our phone calls, we presented ourselves as consumers and asked questions about the dollar
     limit. The purpose of these calls was to determine how HMO plans explain the dollar limit to
     those who ask about it on the phone. We also attempted to find out what specific dollar
     amounts would be applied to the limit for four drugs commonly used by elderly Americans.

     Of the 118 plans we attempted to contact, we were able to ask questions of 99 plans. We
     were not able to ask questions of the remaining 19 plans for the following reasons: 6 plans
     would not answer questions because they were not enrolling new members at the time of our
     call; 5 plans would not answer questions without personal information such as name, address,
     phone number, or ZIP code; 4 plans could not be reached with the phone numbers available; 2
     plans said the person who could answer our questions would not be able to call us back
     because it was a long distance call; 1 plan was out of business; and 1 plan did not return our
     calls after multiple attempts to reach them.

Summary of Benefits Information

     In addition to questions relating to the drug benefit’s dollar limit, we asked each customer
     service representative to send us the plan’s Summary of Benefits. Of the 93 plans whose

       Medicare HMO Prescription Drug Benefits   3                                        OEI-03-00-00430
     customer service representatives said they would send us a Summary of Benefits, we received
     this document from 58 plans. We reviewed the Summaries of Benefits to determine how
     HMO plans explain the dollar limit to beneficiaries in writing.

Comparison of Information that HMOs Provided to CMS and Consumers

     In order to determine whether HMO plans provide CMS and beneficiaries the same
     information about the dollar limit, we compared information we collected from the three
     sources: the CMS Plan Benefit Package database, the phone calls to plans’ customer service
     representatives, and the plans’ Summaries of Benefits. When information from the Summary
     of Benefits was not available, we compared information plans provided to CMS with
     information plans provided to consumers on the phone. We determined whether information
     regarding five issues matched in the different sources. The five issues included (1) the existence
     of a prescription drug benefit, (2) the existence of a dollar limit on drug coverage, (3) the
     amount of the dollar limit, (4) the time period of the dollar limit, and (5) the pricing method for
     determining the amount applied toward the limit for a beneficiary’s drugs.
                                            ____________

     This study was conducted in accordance with the Quality Standards for Inspections issued by
     the President’s Council on Integrity and Efficiency.




      Medicare HMO Prescription Drug Benefits     4                                         OEI-03-00-00430
                                            FINDINGS

Comparing the dollar limits on drug benefits can be a daunting
task

      There are a number of elements that beneficiaries should review when comparing and assessing
      plans’ limits on drug benefits. While the amount of the dollar limit on an HMO plan’s drug benefit
      is an important element when comparing plans, it is not the only factor that Medicare beneficiaries
      should consider when determining the value of a plan. Considering only the dollar amount, a
      beneficiary would assume that a plan with a limit of $1,000 would have double the value of a plan
      with a $500 drug limit. However, this is not necessarily true. Depending on the needs of the
      beneficiary, there are other elements that can significantly affect the value of a plan’s drug benefit.
      These elements include the time period of the dollar limit, whether the plan allows beneficiaries to
      carry forward unused dollars, the types of drugs covered under the limit, the pricing method the
      HMO uses to determine the dollar amount applied to the limit for each prescription, and whether
      the HMO deducts copayments before applying the prescription’s dollar amount to the limit.

Dollar Limit and Time Period

      In 2001, 374 Medicare HMO plans reported dollar limit amounts in the CMS’ Plan Benefit
      Package database. Beneficiaries enrolled in these plans would receive drug coverage ranging
      from $200 to $12,000 in the year 2001. Most of the plans (67 percent, 249 of 374) had limits
      that would result in $1,000 or less in drug coverage for 2001. Only 10 plans provided coverage
      totaling $3,000 or more for the entire year.

      Table 1 shows the range of dollar limits and associated time periods for the 374 plans with dollar
      limits. Higher dollar limits are not always associated with longer time periods. For example,
      there are plans with dollar limits of $200 per year, and plans with limits of $1,000 per month.
      The drug benefit’s value, therefore, depends on the time period as well as the amount of the
      dollar limit.

      Table 1. Variation in the Time Period and Dollar Limit of Drug Benefit

                Time                Number of       Percentage of          Range of         Median
                Period                Plans             Plans             Dollar Limits     Limit

          Annual                        189                 51%            $200-$3,500       $1,000

          Semi-annual                    24                 6%             $250 - $1,500     $500

          Quarterly                     139                 37%            $62 - $1,000      $175

          Monthly                        22                 6%             $45 - $1,000       $50
         Source: 2001 Plan Benefit Package database in CMS’ Health Plan Management System


         Medicare HMO Prescription Drug Benefits        5                                       OEI-03-00-00430
      The drug benefit’s value is also affected by whether the plan allows unused dollars to be carried
      from one time period to the next. In 2001, only 12 percent of plans (46 of 377) allowed
      beneficiaries to carry forward unused dollars. This is a component of the dollar limit that
      beneficiaries should consider when comparing plans. If a beneficiary were in a plan that limited
      coverage to $250 per quarter and the beneficiary used only $50 in one quarter, the remaining
      $200 would be lost. Beneficiaries who use little or none of their drug benefit in one time period
      but have extensive prescription drug needs in another time period might find themselves without
      enough coverage if their plan does not allow unused dollars to be carried forward.

Type of Drugs Included in Limit

      Not all HMO plans cover all types of drugs under the drug benefit. For the plans reviewed, 90
      percent (336 of 374) reported using some type of drug formulary. However, approximately half
      of these plans (58 percent, 195 of 336) also allowed beneficiaries to obtain non-formulary drugs.

      While some plans include all covered drugs under the dollar limit, some plans only include specific
      drug types. The types of drugs included in the dollar limit play a significant role in determining the
      value of the drug benefit to an individual beneficiary. One-third of the plans reviewed (33
      percent, 122 of 374) included only brand drugs in their dollar limit. The remaining two-thirds of
      plans (252 of 374) included generic drugs or a combination of generic and brand drugs in their
      dollar limit.

      When comparing HMO plans, beneficiaries need to consider the types of drugs they use and
      whether the plans they are considering include these drugs in the dollar limit. For example, a
      beneficiary who uses only generic drugs may compare two plans — both with annual limits of
      $1,000 — and believe the two plans offer the same value. However, if one plan includes only
      brand-name drugs in the annual limit, and the other plan limits both brand and generic drugs, the
      value to the beneficiary is considerably different. For a beneficiary who uses only generic drugs,
      the plan that does not include generic drugs in the annual limit would provide better value since
      the cost of those drugs would not be deducted from the limit. If this beneficiary chose the other
      plan, each prescription would be deducted until the annual limit was reached. Upon reaching the
      limit, the beneficiary would be faced with out-of-pocket costs.

Pricing Method Applied to Limit

      The pricing method determines the amount that will be deducted from the beneficiary’s dollar limit
      each time a prescription is filled. The amount applied to the limit for the same exact drug can
      differ substantially among HMO plans that use different pricing methods. According to the Plan
      Benefit Package database, plans used at least 15 different pricing methods in 2001. Most plans
      (81 percent) used one of six different methods. As shown in Table 2, the most frequently used
      pricing method was discounted average wholesale price (AWP), either with or without a
      dispensing fee. Information on all the pricing methods is available in Appendix A.




         Medicare HMO Prescription Drug Benefits    6                                           OEI-03-00-00430
     Table 2. Top Six Pricing Methods Used by HMO Plans with Dollar Limits on Drug Benefit
                                        Pricing Method                                # of Plans   % of Plans

         Discount % of Published AWP                                                       72         19%

         Discount % Published AWP Plus Dispensing Fee                                      70         19%


         Medicare+Choice Organization Acquisition Cost Plus ($__)                          56         15%

         Published National AWP                                                            40         11%

         Medicare+Choice Organization Acquisition Cost Plus Dispensing Fee                 36         10%

         Published AWP Plus Dispensing Fee                                                 28         7%

         TOTAL                                                                             302        81%

        Source: 2001 Plan Benefit Package database in CMS’ Health Plan Management System


     Even within one specific pricing method there can be a number of variations. Plans that used a
     discount percentage of AWP reported discounts ranging from 10 to 85 percent. Most of the
     discounts, however, were between 10 and 20 percent. For plans that included dispensing fees in
     their pricing method, the reported dispensing fees ranged from $1.00 to $7.50.

     The variation in pricing methods among HMO plans can have a major impact on how quickly a
     beneficiary reaches the drug benefit limit. Studies of prescription drug reimbursements indicate
     that the use of some pricing methods result in better prices. For example, prices based on the
     acquisition costs of managed care organizations are generally lower than prices based on AWP.
     Furthermore, prices based on a discounted AWP will be lower than prices based on a non-
     discounted AWP. Therefore, it is important that a beneficiary have information about plans’
     pricing methods when choosing between plans. The beneficiary can then differentiate if one of the
     pricing methods is likely to result in fewer dollars being deducted from the limit. The plans with
     pricing methods that result in lower prices would provide a better value to the beneficiary, since it
     is likely that more prescriptions could be filled before reaching the dollar limit.

Copayment Deducted from Drug Amount

     The value of the drug benefit is also affected by whether the HMO plan deducts the copayment
     from the dollar amount applied to the limit for each prescription. Eighty-five percent of plans that
     reported requiring copayments for drugs (307 of 360) also reported that the copayment was
     deducted from the drug amount applied to the limit. The remaining 15 percent of plans (53 of
     360) reported that the copayment was not deducted from the drug amount.

     All other things being equal, a plan that deducts the copayment from the drug amount offers a
     more valuable pharmacy benefit than a plan that does not deduct the copayment. To




        Medicare HMO Prescription Drug Benefits          7                                          OEI-03-00-00430
      illustrate, Plans A and B both charge a $10 copayment for a drug that costs $50. However, Plan
      A deducts the copayment for the amount applied toward the limit and Plan B does not. In this
      example, Plan A would apply $40 toward the limit ($50 - $10 = $40), while Plan B would apply
      $50 toward the limit. Consequently, after this prescription, a beneficiary at Plan A would have
      more dollars left in coverage than the beneficiary in
      Plan B.


The information that HMOs provide to beneficiaries about
certain elements of the drug benefit is inconsistent,
incomplete, and confusing

      Inconsistent, incomplete, and confusing information about a drug benefit’s dollar limit makes it
      difficult for beneficiaries to know exactly what the HMO plan’s drug benefit includes. It also may
      make it difficult to compare drug benefits provided by different plans, thereby preventing a
      beneficiary from making an informed choice. Having information about the dollar limit can help a
      beneficiary see more clearly how the value of the benefit differs among plans.

      We reviewed several sources that may be used by beneficiaries to acquire information about a
      plan’s drug benefit. We reviewed two sources provided directly from the HMO plan to the
      beneficiary: the Summary of Benefits, and information collected by phone from the plan’s
      customer service representative. We also reviewed the information that HMO plans provided to
      CMS’ Plan Benefit Package database. Some of this data is used to update plan information that
      beneficiaries can view on the Medicare Compare website.

Many HMOs did not provide beneficiaries with specific pricing methods, and when
they did, the information in one source was not consistent with what they reported
in another source

      The majority of Summaries of Benefits (32 of 58) instructed the beneficiary to call the plan to
      find out how a drug’s dollar amount is determined before it is applied to the dollar limit.
      However, when we phoned HMO plans and asked how the plan determined the amount applied
      to the dollar limit, less than half the plans (40 of 91) mentioned a specific pricing method. Most of
      the other plans said, “the price of the drug” or “the cost of the drug” is what is applied toward the
      limit. Such vague explanations do not provide beneficiaries with actual pricing methods that can
      be used to compare the value of plans. In addition, when we asked plan representatives to
      provide the specific dollar amounts that would be applied to the limit for four drugs, 90 percent
      said they could not or would not provide this information for any of the drugs. Therefore,
      beneficiaries are left to make decisions about the value of a plan’s drug benefit based only on
      vague and undefined pricing method information.




         Medicare HMO Prescription Drug Benefits   8                                          OEI-03-00-00430
Even when HMO plans furnished some type of information about how they determine the drug
dollar amount applied to the dollar limit, the details provided were not always consistent across
information sources. Nearly 90 percent of plans (79 of 91) provided different information about
pricing methods among the sources reviewed. There were even cases wherein the information
provided by a plan to all three sources (Plan Benefit Package database, Summary of Benefits,
consumers calling plan’s customer service number) differed.

Figure 1 illustrates differences in the information about pricing methods among the sources we
reviewed. As the example shows, the data reported to CMS provides specific details about what
pricing method this plan uses to determine the drug amount applied to the limit. The Summary of
Benefits tells the beneficiary to call the plan and ask how drug costs are determined. However,
when a beneficiary calls the plan, the customer service representative uses a non-specific term
like “cost of drug” that provides no real pricing method detail. Furthermore, information provided
on the phone and the Summary of Benefits makes it clear that copayment amounts paid by the
beneficiary are not applied to the limit, but the information reported in the Plan Benefit Package
says that copayment amounts are applied to the limit. In addition, the customer service
representative talks about both brand and generic drugs when discussing the limit. However, the
Summary of Benefits refers only to brand name drugs.

Figure 1: Example of One Plan's Inconsistent and Confusing Information About the Drug
                               Amount Applied to the Limit


             WHAT THE PLAN PROVIDED TO CMS ’ PLAN BENEFIT PACKAGE DATABASE:

                      AWP minus 14% including copayment amount


                      WHAT THE PLAN WROTE IN THE SUMMARY OF BENEFITS :

       “Limits are calculated as the sum total of all of your brand name
       prescription drug purchases minus any applicable copayment costs.”

       “Please ask [the plan] about how we determine drug costs that count
       toward these limits.”


        WHAT THE PLAN ’S CUSTOMER SERVICE REPRESENTATIVE SAID ON THE PHONE:

      “The cost of the drug minus the copayment. For example, if the drug cost $50,
      [you] would only pay $15 for brand drugs or $10 for generic drugs. The
      amount deducted from cap would be $35 if it was a brand, or $40 if it was a
      generic.”




  Sources: 2001 Plan Benefit Package database in CMS’ Health Plan Management System; Phone call to
  plan’s customer service representative (January/February 2001); and 2001 Summary of Benefits



   Medicare HMO Prescription Drug Benefits         9                                                 OEI-03-00-00430
In addition, dollar amounts and time periods reported by some HMO plans were not
always consistent across sources

      Overall, 16 percent of reviewed HMO plans (15 of 93) provided inconsistent data on the dollar
      amount or time period of their limit across information sources. More than half of these (8 of 15)
      reported contradictory information for both dollar amount and time limit. For example, one plan
      told a consumer on the phone the dollar limit was $1,000 per year but reported to CMS and in
      the Summary of Benefits that the dollar limit was $125 every 3 months.

Few HMOs provided information to beneficiaries about whether copayments are
deducted from the amount applied to the dollar limit

      The CMS does not currently require HMO plans to provide information, in the Summary of
      Benefits, about whether they deduct copayments from the prescription price before applying this
      amount to the dollar limit. Only 12 percent of plans (7 of 58) provided this additional piece of
      information to beneficiaries in the Summary of Benefits.




         Medicare HMO Prescription Drug Benefits   10                                       OEI-03-00-00430
                        RECOMMENDATIONS


   Our prior studies have shown that prescription drug coverage is one of the main factors that
   attracts beneficiaries to enroll in a managed care option under Medicare. Thus, every practical
   effort should be made to help beneficiaries compare drug benefits among various plans. In order
   for beneficiaries to make informed choices regarding the value of a plan’s prescription drug limit,
   they need accurate, comprehensive, and comparable information about the plan’s drug benefit.
   To this end, CMS has taken numerous steps to ensure that beneficiaries receive information
   about drug plans in both the Summary of Benefits and the Medicare Compare database
   available on the Internet. We recommend that CMS also consider the following:

   <	        Enhance and validate the drug limit information that is collected from plans for the Plan
             Benefit Package database.

   <	        Enhance current educational efforts to ensure the plans’ drug benefits are clearly
             explained.



AGENCY COMMENTS

   The CMS reviewed our draft report. They agreed with our draft recommendations: (1) to
   enhance and validate the drug limit information currently collected in the Plan Benefit Package
   database, and (2) to provide beneficiaries with education regarding drug benefits. However, they
   felt our suggestions for how to provide such education were inappropriate. They also commented
   that we did not adequately acknowledge the drug benefit information that is already being
   provided to beneficiaries.

   We acknowledge CMS’ concerns, and have substantially revised our recommendations to
   respond to their comments. We have also modified our introduction and finding sections to reflect
   CMS’ comments concerning the types of drug benefit information already being provided to
   beneficiaries and the inherent complexity of this information.

   However, we continue to believe that pricing information is a key element when comparing plans’
   drug benefits. We understand that “drug benefit offerings in the pharmaceutical industry are
   complex and it is difficult for anyone (i.e., not only Medicare beneficiaries) to understand . . . .” It
   is precisely for that reason that we continue to believe that beneficiaries need to understand and
   know pricing information to make an informed decision. The CMS suggested that beneficiaries
   would better understand a drug benefit and be able to compare it across plans if they could see
   what it would cost to obtain a prescription for one or two popular drugs. We agree that
   providing plans’ actual prices for



        Medicare HMO Prescription Drug Benefits   11                                          OEI-03-00-00430
drugs would assist beneficiaries in making informed choices about the value of a plan to them.
We encourage CMS to work toward making actual prices available to Medicare beneficiaries.




   Medicare HMO Prescription Drug Benefits   12                                      OEI-03-00-00430
                                                                                       APPENDIX A



    Pricing Methods Used by HMO Plans with Dollar Limits in 2001

                                                                                   Number of   Percentage
                                  Pricing Method                                     Plans      of Plans

 Discount % of Published AWP                                                          72         19.25%

 Discount % of Published AWP Plus Dispensing Fee                                      70         18.72%

 Medicare+Choice Organization Acquisition Cost Plus ($__)                             56         14.97%

 Published National AWP                                                               40         10.70%

 Medicare+Choice Organization Acquisition Cost Plus Dispensing Fee                    36         9.63%

 Published AWP Plus Dispensing Fee                                                    28         7.49%

 Brand - Discount % of Published AWP Plus Dispensing Fee and Generic -                13         3.48%
 Maximum Allowable Cost Plus Dispensing Fee

 Published Wholesale Price                                                            11         2.94%

 Brand - Discount % of Published AWP Plus Dispensing Fee and Generic -                11         2.94%
 Discount of Published AWP or Maximum Allowable Cost Plus Dispensing
 Fee

 Brand - Discount % of Published AWP Plus Dispensing Fee and Generic -                 9         2.41%
 Maximum Allowable Cost or Federal Upper Limit Plus
 Dispensing Fee

 Published Medicare+Choice Organization Fee/Charge Schedule                            6         1.60%

 Actual Acquisition Cost x 1.25                                                        6         1.60%

 Published Retail Price                                                                5         1.34%

 Medicare Fee Schedule                                                                 1         0.27%

 Lesser of Usual & Customary, or, Brand - Discount % of Published AWP Plus             1         0.27%
 Dispensing Fee and Generic - Medicare+Choice Organization Acquisition
 Cost Plus Dispensing Fee

 Other (not specified)                                                                 9         2.41%

 TOTAL                                                                                374        100%

Source: 2001 Plan Benefit Package database in CMS’ Health Plan Management System




             Medicare HMO Prescription Drug Benefits          13                                  OEI-03-00-00430
                       ACKNOWLEDGMENTS


This report was prepared under the direction of Robert A.Vito, Regional Inspector General for
Evaluation and Inspections in Philadelphia. Other principal Office of Evaluation and Inspections staff who
contributed include:

Isabelle Buonocore, Project Leader                        Linda Frisch, Program Specialist

Lauren McNulty, Program Analyst

Stacey R.Uhl, Program Analyst

Nancy J. Molyneaux, Program Analyst

Cynthia R. Hansford, Program Assistant





                                                    17

